Edword J. Wolters, Jr. *
Dorrel J. Popillion

Of Counsel

WALTERS

Dovid Abboud Thomos
J. Cullens

"t

PAPILLION

And16e Molherne Cullens

Hoyden A. Moore
Jennifer Wise Moroux
Rene6 C. Croslo

THOMAS
CULLENS

'Boqrd Cerlifred in Civil Triol Advococy, NBfA
fAmeicon Boord of Professionol Liobility Affo.neys

ATTORNEYS

-

John S. McLindon, LLC

Michelle McCune Sorrells, LIC
Colleen C. Milfelt,
Business Monoger

P: 225.236.3636
Fz 225.236.3650

LAW

December 2,2020

Clerk of Court
Supreme Court of The United States
I First Street, NE
Washington, DC 20543
RE

Milliman, Inc. v. James J. Donelon, Commissioner of Insurance, e/c.
Docket No. 20-299

Dear Clerk of Court:

The undersigned is counsel for the Respondent to an Application for Writ of Certiorari
filed in the above referenced matter. Last week, on November 25,2020, we were directed to file
a response to Petitioner's writ application on or before December 28,2020.
Pursuant to Rule 30.4, Respondent respectfully requests an additional thirfy (30) days to
writ application, or until January 27 ,202I, for the reasons stated below.

respond to Petitioner's

First, undersigned counsel has been informed by opposing counsel that Petitioner has no
objection to Respondent's request for a thirly (30) day extension and that Petitioner will not oppose
this request. We therefore respectfully suggest that granting this request for an extension will
cause no prejudice to the Petitioner.
Second,

in addition to the everyday workload t"vpical of a busy practice, undersigned

counsel curently has several previously scheduled commitments in other matters between today
and December 28th that will make it difficult to comply with the cunent response deadline. These
other previously scheduled commitments include: (a) three (3) relatively complex and involved
filing deadlines later this week (one due tomorrow, December 3'd and two due Friday, December
4th); (b) a hearing in a multi-party, complex commercial case involving dispositive motions and
witness testimony on December 1lth; and (c) a hearing in a multi-party, complex construction
litigation case involving dispositive motions and witness testimony on December l4th. Respondent
respectfully suggests that an additional thirty (30) days to review and respond to Petitioner's writ
application-and Amicus brief filed herein by the American Institute of CPAs-is reasonable
under the circumstances.

Third, and unfortunately, one of the three attomeys working on this eight-figure case for
the Respondent recently completed radiation treatments for recurrent cancer in Houston, Texas,

1234s pERKtNS RoAD I BAToN RoUGE I LoutstANA I zoaro

LAWBR,N

ET

United States Supreme Court
December 2,2020
Page2

still experiencing side-effects
for
his
cancer, and sees his treating
is
receiving
medical
treatment
from radiation treatment, still
physicians regularly. This attorney expects to retum to full-time work after the first of the new
year. If the current filing deadline of Decemb er 28th is not extended, to the extent he is able to
work on this response, it may compromise his health and general well-being and will undoubtedly
place an additional burden on the other attorneys working on this important case.
and has only returned to work, part-time, last month. This attorney is

Fourth, given that the current deadline is just three (3) days after Christmas, if not extended
and in light of the reasons set forth above, it may be necessary to work through the entirety of
Christmas week, thereby severely impacting the personal lives of our firms' staff and support
personnel. Given the hardships that we have all endured during this historic year, undersigned
counsel respectfully requests that he, his fellow attomeys, his supporting staff, and all of our
respective families, not be deprived of a relatively'onormal" Christmas this year if at all possible.

For all of these reasons, we respectfully request an additional thirly (30) days, or until
January 27,2021, to file our response to Petitioner's writ application.
Sincerely,

WALTERS, P
THOMAS,

ON,

By:
J. E. Cullens, Jr.

Trial Attorney for Respondent

JECjr/kr

